    INSPECTION REPORT


  SELECTED ADMINISTRATIVE ACTIVITIES
AT THE DENVER SERVICE CENTER AND THE
   ADMINISTRATIVE PROGRAM CENTER,
        NATIONAL PARK SERVICE

         REPORT NO. 96-I-1036
            AUGUST 1996
             United States Department of the Interior
                         OFFICE OF INSPECTOR GENERAL
                                 Washington, D.C. 20240




MEMORANDUM

TO:                       The Secretary

FROM:                                                          v
                           Inspector General

SUBJECT SUMMARY: Final Inspection Report for Your Information - “Selected
                 Administrative Activities at the Denver Service Center
                 and the Administrative Program Center, National Park
                 Service” (No. 96-I-1036)

Attached for your information is a copy of the subject final inspection report. The
objective of the review was to determine whether the National Park Service’s Denver
Service Center and Administrative Program Center conducted travel, time and
attendance, small purchases, and personal property activities in accordance with
established laws, regulations, and procedures.

We concluded that the Denver Service Center and the former Rocky Mountain
Regional Office, which handled the administrative functions transferred to the
Administrative Program Center, effectively managed travel and time and attendance
activities. However, we identified instances where the offices did not comply with
certain administrative guidelines for the management of small purchases and
personal property. As a result, the imprest fund and third-party drafts were subject
to loss or misuse; late payment penalties accrued on those purchase orders and
blanket purchase agreements that were not processed timely; and personal property
was not always accurately recorded or protected. We made four recommendations
to ensure compliance with administrative requirements, to emphasize the use of the
Government Purchase Card over other small purchase procurement methods, and
to improve the automated system for tracking the status of small procurements (DI-1
Tracking System).

Based on the Park Service’s response, we considered three recommendations
resolved and implemented. However, we considered the recommendation on the
DI-1 Tracking System as unresolved, and the Park Service was requested to
reconsider the recommendation.,

If you have questions concerning this matter, please contact me or Mr. Robert J.
Williams, Acting Inspector General for Audits, at (202) 208-5745.



Attachment
                          INSPECTION REPORT

Memorandum

To:

From:


Subject:
           Denver Service Center and the Administrative Program Center, National
           Park Service (No. 96-I-1036)

                               INTRODUCTION
This report presents the results of our inspection of selected administrative activities
at the Denver Service Center and the Administrative Program Center, National Park
Service. The objective of the inspection was to determine whether the Service
Center and the Program Center conducted travel, time and attendance, small
purchases, and personal property activities in accordance with established laws,
regulations, and procedures.

BACKGROUND

The Denver Service Center manages the planning, design, and construction activities
for the National Park Service and is collocated with the Administrative Program
Center in Lakewood, Colorado. During our review, the Park Service was undergoing
an extensive reorganization that included closing the Rocky Mountain Regional
Office and moving its functions into several newly created offices. The Regional
Office’s administrative functions were transferred to the new Administrative Program
Center. Consequently, the Program Center now provides the Service Center with
administrative support for small purchases, travel, and personal property accounting
that was formerly provided by the Regional Office. The Accounting Operations
Division in Reston, Virginia, also assists the Service Center and the Program Center
by providing operational guidelines and oversight for financial activities.

In fiscal year 1994, $40.6 million (77 percent) of the Service Center’s $52.6 million
budget was spent on personnel costs for about 740 full-time equivalent positions, and
$5.9 million (11 percent) was spent on travel costs for Service Center employees.
Also, approximately 5,000 small purchase actions (transactions of $25,000 and less),
totaling $3.7 million, were processed during fiscal year 1994.

The April 1995 personal property records for the Service Center listed 6,489 items
with an acquisition cost of $6.7 million. Much of the personal property consisted of
sensitive items such as computers, cameras, surveying equipment, and other
electronic devices.

SCOPE OF INSPECTION

Our inspection covered travel, time and attendance, small purchases, and personal
property activities conducted by the Denver Service Center from October 1993
through June 1995. The inspection also covered the support for these activities
provided by the Rocky Mountain Regional Office (now the Administrative Program
Center) for the Service Center.

The inspection was conducted in accordance with the “Quality Standards for
Inspections,” issued by the President’s Council on Integrity and Efficiency and,
accordingly, included such tests and inspection procedures considered necessary
under the circumstances. The inspection, performed at the Denver Service Center
and the Administrative Program Center, is intended to provide information to
managers for decision making; for making recommendations for improvements to
programs, policies, or procedures; and for administrative action. Our conclusions
were based on observations of administrative operations; interviews with
administrative and other personnel; and the results of limited tests and analyses of
records, reports, and transactions.

PRIOR AUDIT COVERAGE

Neither the General Accounting Office nor the Office of Inspector General has
issued any audit reports in the past 5 years that addressed the administrative
activities of the Denver Service Center or the former Rocky Mountain Regional
Office.

                      RESULTS OF INSPECTION
We concluded that the Denver Service Center and the Rocky Mountain Regional
Office effectively managed travel and time and attendance activities. However, we
identified instances where the offices did not comply with certain administrative
guidelines for the management of small purchases and personal property. As a
result, the imprest fund and third-party drafts were subject to loss or misuse; late
payment penalties accrued on those purchase orders and blanket purchase
agreements that were not processed timely; and personal property was not always
accurately recorded or protected.
Travel and Time and Attendance

The Service Center’s procedures for travel generally functioned effectively and
provided for adequate administrative control. Official trips were approved in
advance by the employee’s supervisor, an automated program expedited the
preparation of travel authorizations and vouchers, a full-time employee assisted
travelers in complying with travel regulations, and outstanding travel advances were
monitored by the Accounting Operations Division. Furthermore, controls over time
and attendance were adequate and effective. We reviewed the Service Center’s time
reporting procedures and found that employee time was properly certified and that
time was accurately recorded and input into the payroll system.

Small Purchases

Small purchase activities were generally performed effectively. Specifically,
Purchasing Agents received regular training and their contract officer warrants were
current; purchases were generally for allowable purposes; small and disadvantaged
businesses were regularly utilized; requisitions were properly authorized;
procurement transactions were timely and properly subjected to competition; and
purchase order files were complete. Nevertheless, we believe that small purchases
could be administered more efficiently if the number of payment methods was
reduced and if personnel complied with established requirements.

The Service Center and the Program Center currently use five payment processes
(imprest fund, third-party drafts, Government Purchase Card, purchase orders, and
blanket purchase agreements) to accomplish small purchases. Each method of
payment has different procedural requirements governed by separate regulations and
guidelines. Based on our analysis, we concluded that the Government Purchase Card
could meet most of the centers’ small purchase needs, reduce the administrative
burden, and increase the timeliness of vendor payments. The purchase card, which
can be used for most small purchase transactions, would allow the other payment
processes to be eliminated or used less frequently. Further, the U.S. Treasury
Financial Manual (I TFM 4-4515) stipulates that the purchase card be used unless
another payment process is determined to be more cost effective, practicable, or
required by existing statutes.

     Imprest Fund. Imprest funds are to be administered in accordance with the
Department of the Treasury’s Manual of Procedures and Instructions for Cashiers,
the Treasury Financial Manual (I TFM 4-3000), the Departmental Manual (330
DM), and the Park Service’s Imprest Fund Manual. Our inspection of the Rocky
Mountain Regional Office’s $5,000 imprest fund disclosed that the following
guidelines were not being met:

      - The guidelines state that a complete and unannounced cash verification of
the imprest fund should be conducted at least quarterly. However, only one
verification had been performed in the prior 13-month period for the $4,250


                                         3
principal fund. Also, the alternate cashier's $750 fund had never been counted. We
determined that $694 of this fund had been stolen. We believe that if the Regional
Office had been conducting unannounced cash verifications, the opportunity to take
the funds would have diminished.

     - The guidelines recommend that the fund level be reviewed at least annually
and adjusted if necessary. We determined that the authorized fund level should be
reduced from $5,000 to $1,500 or less because the fund’s activity for the 12 months
ending February 1995 indicated that monthly fund expenditures averaged about $700.

     - Recommended security procedures were not followed for cash, undeposited
Treasury checks, and third-party drafts. Specific safeguards that should be
implemented include: (1) securing the safe combination and a duplicate key for each
cash box in a sealed envelope and separate safe to allow entry when the cashiers are
unavailable; (2) maintaining a written log at each safe that lists the dates when the
combination was changed and the individuals who know the combination; and (3)
changing the safe combination at least annually.

      - Supporting documentation (invoices, receipts, and travel vouchers) was not
always properly canceled. To help avoid duplicate payments, each document should
be stamped “Paid.” This issue also pertains to third-party drafts.

     - Procurements for personal services are unallowable from the imprest fund.
However, three procurements, totaling over $400, for sign language interpreters,
which are identified as unallowable personal services expenditures in the Treasury
Financial Manual, were made in fiscal year 1994.

     - Travel expenses were not separated from other small purchases on the
reimbursement vouchers, as specified by the Park Service’s Imprest Fund Manual.

     Third-Party Drafts. Third-party drafts (a method of payment similar to regular
checking accounts) are to be administered in accordance with the Department of the
Treasury’s Cashiers Manual; the Treasury Financial Manual (I TFM 4-3000); the
Departmental Manual (330 DM); the Park Service’s Third-Party Draft System Policy
and Procedures, Issuances 1 through 6; and the Park Service’s Imprest Fund Manual.

Based on our review of the third-party draft accounts managed by the Regional
Office, we found that the following guidelines were not being met:

     - Seven boxes containing 7,000 blank third-party drafts, with a potential
procurement value of $17.5 million, were received in December 1993 but had not
been opened. Third-party draft orders should be physically inspected immediately
upon, receipt to confirm and document the actual contents.

     - Drafts Issued Logs were not maintained to track use of the drafts, and the
Draft Agents’ supplies were not reviewed weekly to guard against unauthorized use.
     - The Site Manager transferred the entire inventory of 5,000 drafts for Draft
Account No. 1224 (used for local travel and small purchases) to the Draft Agent.
The guidelines state that blank drafts are to be allocated to the Draft Agent only “as
they are needed.” As a result, we estimated that the Draft Agent controlled at least
a 6-year supply of drafts.

     - Copies of the issued drafts and supporting documentation were not
maintained for Draft Account No. 1227 (used for nonlocal travel).          This
documentation should be retained in the permanent files for at least 2 years to
substantiate draft usage.

     - The supply of blank drafts for inactive Draft Account No. 2001 was still
maintained in the safe. To avoid unauthorized use, these documents should be
shredded.

     - Voided drafts were not processed timely for Draft Account No. 1227.
Although voided drafts should be submitted monthly to the contractor bank, over 14
months had elapsed since the last submittal, and 85 voided drafts had accumulated
during this period.

      - The written authorizations for Draft Account No. 1227 needed to be
updated, as four of the seven authorized Draft Agents had no current responsibilities
for this draft account.

     - Administrative reviews were not conducted for third-party drafts.
Comprehensive administrative evaluations of the system should be conducted on a
regularly scheduled basis.

     Purchase Orders and Blanket Purchase Agreements. Purchase orders and
blanket purchase agreements are to be administered in accordance with the Code of
Federal Regulations (48 CFR Chapter 1, Part 13), the Department of the Interior
Acquisition Regulation System (48 CFR Chapter 14), and the Park Service’s
Acquisition Guideline (NPS-62).

Based on our review, we found the following weaknesses in the Rocky Mountain
Regional Office’s management of purchase orders and blanket purchase agreements:

     - About 40 (25 percent) of the 163 blanket purchase agreements had little or
no activity; therefore, administrative effort was unnecessarily expended on
maintaining these agreements.

     - The automated system for tracking the status of small procurements (DI-1
Tracking System) had numerous incorrect and missing dates. Also, the usefulness
of the system to monitor compliance with the Prompt Payment Act could be
enhanced by adding the invoice received date to the system.
     - Purchase order documentation was not always submitted to the Park
Service’s Accounting Operations Division on a timely basis, thus resulting in late
payment penalties under the Prompt Payment Act. The delays occurred when the
Receiving Officer was not informed that an ordered item was delivered directly to
the end-user office.

     - A large backlog of procurement transactions from prior years, some dating
back to 1990, had not received final administrative action. Specifically, 93 purchase
orders, totaling $181,940, were not processed and apparently were never completed;
81 purchase orders, totaling $71,900, were in suspense status waiting for a vendor
invoice; and 15 expired blanket purchase agreements had not been closed out.

Personal Property Accountability

Improvements are needed to ensure the effective accountability of the Service
Center’s personal property. Personal property is to be administered in accordance
with the Federal Property Management Regulations System (41 CFR 101), the
Interior Property Management Regulations System (41 CFR 114 and 410
Departmental Manual), and the Park Service’s Personal Property Management
Guideline (NPS-44).

Based on our review of 11 of the 44 division, team, and branch offices, we found that
requirements were not being met as follows:

      - A physical inventory of Service Center personal property had not been
completed since fiscal year 1993. Also, previous inventories were not completely
reliable because off-site property was inspected by the employees personally
accountable for the property and therefore was not independently verified. A
complete inventory should be conducted annually to ensure that property is
accurately documented and safeguarded.

      - Division and branch office property management officials tracked the
location of their property using a variety of informal automated systems that did not
interface with the official property management system. Also, these systems were
unnecessary, since the official property system could be modified to provide the
location of property by assigned employee.

     - Certain computers, surveying equipment, and various electronic devices did
not have identification tags and were not recorded in the official property
management system. Consequently, all of the nine property items assigned to the
Service Center Eastern Team that we selected for review could not be located.
Personal property should be tagged and documented in the property system
immediately upon receipt.

     - Property that was delivered directly to the end-user office frequently was not
inspected by the Receiving Officer. In these situations, the property may not have


                                          6
been adequately inspected to detemine whether deficiencies existed in the order.
All property is required to be initially inspected by a designated receiving official.

     - The required Receiving Reports were not prepared for property acquired
under Government Purchase Cards.

      - Employees in the Service Center’s Eastern Team Construction Branch did
not sign out for property that was taken off-site. Written authorization is required
whenever property is removed from the assigned work place.

      - Many property management officials had not received the required written
notification of their property-related responsibilities.

Management Actions

Service Center and Program Center officials took prompt action to address some of
the weaknesses identified during our review. For example, the Service Center
initiated a physical inventory that will utilize improved procedures for verifying off-
site property and for documenting the location of assigned property. Procedures
were also initiated to safeguard the imprest fund and third-party drafts.

At the exit conference, Service Center and Program Center senior-level management
officials generally agreed with our findings and recommendations.

Recommendations

We recommend that the Director, Administrative Program Center, and the Director,
Denver Service Center:

     1. Ensure compliance with administrative requirements for small purchases and
personal property management.

     2. Emphasize the use of the Government Purchase Card over other small
purchase procurement methods.

      3. Add the invoice received date to the automated system for tracking the
status of small procurements (DI-1 Tracking System).

     4. Ensure that all offices use the official property management system to
account for personal property.


National Park Service Response and Office of Inspector General Reply

In its November 29, 1995, response (Appendix 1) to the draft report, the Director,
Denver Service Center, concurred with Recommendations 1, 2, and 4.

                                           7
Recommendation 3 did not pertain to activities conducted by the Service Center.
The December 8, 1995, response (Appendix 2) from the Director, Administrative
Program Center, indicated concurrence with Recommendations 1, 2, and 4 and
nonconcurrence with Recommendation 3. Based on the responses, we consider
Recommendations 1, 2, and 4 resolved and implemented and Recommendation 3
unresolved. Therefore, the Park Service is requested to reconsider its response to
Recommendation 3 (see Appendix 3).

Recommendation 3. Nonconcurrence.

   Park Service Response. The Director, Administrative Program Center, stated that
the DI-1 Tracking System was not intended to be a “finance tool” and that the
System did not interface with the official finance system.

   Office of Inspector General Reply. Even though the DI-1 Tracking System does
not interface with the official finance system, we believe that the System offers
significant opportunities to provide management with information necessary to
administer, in a more effective manner, small procurements by tracking compliance
with the Prompt Payment Act. At our exit conference, Program Center officials
concurred that the DI-1 Tracking System contained numerous data errors and that
System usefulness could be enhanced by modifying the System. Accordingly, we
recommended that the System be modified to include the invoice received date.

Additional Comments

The Directors of the Denver Service Center and the Administrative Service Center
suggested changes to our draft report, which we incorporated into our report as
appropriate. Also, the Director, Administrative Program Center, stated that the
Program Center was in compliance with administrative requirements for small
purchases and personal property management, He noted that several of the control
techniques were not mandatory, such as document security safeguards and document
cancellation, which were prescribed in the guidance issued by the U.S. Treasury, the
Department, and the Accounting Operations Division. We believe that these
guidelines form the basis of a well-managed administrative system and that they
should be fully implemented.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting your
written response to this report by October 11, 1996. Your response should provide
the information requested in Appendix 3.

The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, the monetary
impact of audit findings, actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not
been taken.
                                                                    APPENDIX 1       I
                                                                    Page 1 of 2




F4217 (DSC-D)


Memorandum
To:          Associate Director, Professional Services, WASO
From:        Director, Denver Service Center
Subject:      Office of the Inspector General Draft Inspection Report, Selected
              Administrative Activities at the Denver Service Center and the
              Administrative Program Center, National Park Service (Assignment No.
              C-IN-NPS-001-95)
The Denver Service Center concurs with the findings contained in the draft
inspection report that are the direct responsibility of DSC. The Administrative
Program Center will respond separately to the Office of the Inspector General on
the findings and recommendations concerning their activities in support of DSC.
We have one general comment to make on page 6, paragraph 2 under “Imprest Fund,”
last sentence. The sentence should read, “We believe that if the Program Center
had been conducting unannounced cash verifications, . . . .“  The change in the
sentence is underlined.
The following actions have been taken or are planned:
1.  Ensure compliance with administrative requirements for small purchases and
personal property management.
        Compliance with administrative requirements for small purchases:    The
        Denver Service Center implemented the Government Purchase Card Program
        (see below) for small purchases. All administrative requirements of the
        program are being met.    The Denver Service Center Contracting Officer
        ensures compliance.
        Compliance with personal property management: The Denver Service Center
        is ensuring compliance with personal property administrative requirements.
        See number 4 below.
        The Administrative Program Center will respond to their activities that
        are conducted in support of DSC.
2. Emphasize the use of the Government Purchase Card over other small purchase
procurement methods.
        The Denver Service Center has implemented the Government Purchase Card
        program for small purchases.     Approximately 30 cardholders and their
        approving officials have received the required training for the program.
        Limits per transaction range from $500 to $2500. Individual transaction
        limits have been set as well as monthly limits per office. Cardholders
        will be purchasing miscellaneous office supplies not available in our
        supply room, reserving training or meeting space as necessary, and making
        other small purchases in accordance with the Government Purchase Card
        program.
                                                                  APPENDIX 1
                                                                  Page 2 of 2


                                                                                2
      Implementation Official:
      Robert W. Laubenheim, Contracting Officer, DSC
      Target:    Completed - October/November 1995
3. Add the invoice received date to the automated system for tracking the status
of small procurements (DI-1 Tracking System) .
      The Administrative Program Center will respond to this recommendation.
4.   Ensure that all offices use the official property management system to
account for personal property.
        A physical inventory of all property associated with the Denver Service
      Center was conducted and is being entered into the Federal Property
      Management tracking system.
        Property that was outdated or unused was excessed based on guidance
      contained in NPS-44.
        Property will be the responsibility of each individual rather than a
      supervisor in order to achieve better accountability.
        All “floating property” (i.e., notebook computers, cameras, etc.) will
      be gathered together in one place and used on a check-out basis for better
      control and accountability.
         Property guidelines will be issued to all DSC employees established
      procedures for property transfers, responsibilities, etc.
        The Denver Service Center will be realigning their space to implement
      the reorganization of the Center effective October 1, 1995. All property
      assignments, record keeping procedures, and guidelines will be in place
      with the realignment occurs.
        The Administrative Program Center will respond to their activities that
      are in support of DSC.
      Implementation Official:
      Betty Shreeve, Management Assistant, DSC
      Target :   Estimated date - March 1995
Thank you for the opportunity to comment on the draft report. If you have any
questions or need additional information, please contact Rodger Evans, Chief of
Operations, Denver Service Center, (303) 969-2100.



Charles P. Clapper, Jr.
cc :
WASO-Administration-Mary Bradford, w/c draft report
bcc :
DSC-D-File, w/c draft report
D:KCZiegenfus:kz:ll/29/95:2365:C:\WP51\LINDA\IGRPT.MEM




                                        10
                                                                   APPENDIX 2
                                                                   Page 1 of 6


P4217   (APC-MP)



Memorandum

To:          Judy Harrison, Acting Assistant Inspector General for
             Audits, Office of the Inspector General, U.S. Department
             of the Interior

From:              Director,   Administrative   Program   Center

Subject:     Draft   Inspection   Report on Selected      Administrative
             Activities at     the D e n v e r Service Center   and   the
             Administrative   Program    Center, National  Park   Service
              (Assignment C-IN-NPS-001-95)

This is in response to your draft inspection report, dated October
31, 1995. We appreciate the opportunity to respond to the report
in its draft form. The Administrative Program Center is responding
to those items under our current jurisdiction and responsibility,
with the DSC responding separately to those items for which they
have responsibility.

By way of clarification to your Background information on page 2,
the Administrative Program Center (APC) did not come into existence
until October, 1995, so the statements within the report which
depict the (APC) “managing” or “providing” services is misleading.
These programs were administered by the Rocky Mountain Regional
Office in support of employees within that office and the Denver
Service Center at the time of the inspection.

In addition, the Accounting Operations Division, (AOD) in Reston,
Virginia only “assists” in guidelines and oversight for the finance
functions only, not ‘administrative’ activities.

The following comments are in response to the findings and “RESULTS
OF INSPECTION” in the body of your report:

SMALL PURCHASES

There were not five methods of procurement; there was one: small
purchases (FAR Part 13). The Streamlining Act of 1994 established
two procedures: micropurchasing and simplified acquisition. Until
there was implementation policy from the Department and National
Park Service, we were required to continue with small purchases
procedures.

FAC-90-20. issued December 15, 1994, implemented the micropurchase
procedure.   This was implemented in the Rocky Mountain Region in

             1



                                       11
                                                         APPENDIX 2
                                                         Page 2 of 6


December, 1994, with the issuance of the December 13, 1994 memo
signed by     John  H.   King,   Associate  Regional  Director,
Administration.

Imprest fund,    third-party drafts,     government   purchase card,
purchase orders, and blanket purchase agreements are processes for
accomplishing    micropurchasing    and     simplified    acquisition
procedures.    These are primarily payment processes used to
accomplish small purchases, or more recently, micropurchasing and
simplified acquisition procedures.      It is up to the purchasing
agent to determine which process is the best and most efficient
method of payment for each acquisition.           Each of the five
individual processes provides its own flexibility and efficiency to
individual circumstances.    All are available for use within the
guidelines set forth in FAR Part 13.1.

PURCHASE CARD

The Purchase Card Program was not approved for use within The
National Park Service until the latter part of March, 1995.

The four purchasing agents performing small purchasing within the
regional office were trained in the use of the card, policy and
procedures were developed, and the program was locally implemented
in May, 1995. During the time of the audit, we were in the process
of training individual cardholders and approving officials both
within what was then the regional office and in the field.     The
first central office training sessions for cardholders and
approving officials were held May 9 and 10, 1995, when we trained
68 individuals.   Since then, training sessions were held July 18
with 26 attendees and October 11, 1995 with 25 attendees.

The National Park Service (AOD) has established a payment policy
for the Purchase Card Program with Rocky Mountain BankCard System.
One invoice payment, made within Prompt Payment guidelines, is made
on a monthly basis for the entire service including all parks and
central offices.

As mentioned above, we have implemented the program within this
central office and are encouraging cardholders to use the card
whenever it is cost effective and practical.

IMPREST FUND

Quarterly unannounced cash verifications will be performed in the
future.

We did determine a shortage of $694 dollars, issued a bill of
collection, and recovered the funds.     While it is possible that
loss might have been avoided by unannounced audits of the cash, the

           2



                                  12
                                                       APPENDIX 2
                                                       Page 3 of 6


accountable employee had very sudden and significant personal
concerns that may well have resulted in the loss of the cash no
matter what steps we took, short of anticipating those problems
ahead of time and relieving him of that alternate cashier
responsibility.

Prior to October, 1994, this central office had one large imprest
fund of $75,000. which was primarily used to pay travel vouchers.
At that time, Dave Galentine was a subcashier to the cashier with
a $750 advance of funds. During October, 1994, the travel payment
process was changed: advances were then paid via Third Party
Drafts, and the $75,000 fund was returned to Treasury.   A single
$5,000 imprest fund was established for this central office with
David Galentine as the cashier.   After nine months of operation,
the fund’s activity was reviewed and the fund was further reduced
to the $1,000 level in June, 1995.

The “Service Center” had no financial accountability/responsibility
for the imprest fund; this was an administrative responsibility of
the Rocky Mountain Regional Office.

The combination for the supply operation safe was changed by GSA
Security Personnel approximately one year before the audit.   They
provided the documented safe combination on a pull-apart form - an
encasing envelope.   This envelope was placed in a limited access
area away from the safe. Only two individuals, the cashier and the
alternate, knew the combination.   Each worked out of individual,
lockable cash boxes. Each had the only existing key for his box .
The June, 1993, Treasury Manual states “This envelope should b e
placed in a safe...”, but does not mandate such action.

We do not concur that Treasury mandates maintaining a written log
that lists the dates when the combination was changed and the
individuals who know the combination.      This is a suggestion
established in AOD’s imprest fund manual issued in April, 1994.
The manual is neither official policy nor part of the Official
Guidelines issued by the National Park Service.

We also do not concur that sign language interpretation is a
personal service and thus unreembursable from the imprest fund,
any more than veterinary and other services are. The government is
not supervising this function. AOD has determined these expenses
appropriate as are payment for Volunteers In Parks, payment for
service to repair equipment, horseshoers to shoe and maintain
livestock, etc. These are reimbursable according to AOD.

Regarding the supporting documentation, we are not aware of any
requirement or regulation to stamp documents paid.       Adequate
internal controls are in place as AOD will pay only from original
invoices or Certified True Copies of Originals.

          3



                                13
                                                       APPENDIX 2
                                                       Page 4 of 6


It is true that travel expenses and small purchases were not placed
on separate reimbursement vouchers. Although this is a requirement
of AOD, our Regional Office received a waiver in October, 1994 for
this process allowing us to combine all Subvouchers on one
reimbursement voucher.

THIRD PARTY DRAFTS

All unnecessary third party drafts are being properly destroyed on
site, not transferred to AOD.       This is in accordance with
established procedures which provide adequate internal controls.
Administrative reviews will be accomplished for the Third Party
Draft Program.

All voided drafts for 1227 were submitted to Chemical Bank in June,
1995.   Signature cards are not necessary for account 1227 as that
account no longer exists.

Several years ago the Rocky Mountain Regional Office designed an
automated Third Park Draft System to use in ensuring, safeguarding,
and controlling third party drafts. This system provides automated
logs of all drafts issued on a daily and/or monthly basis.      The
automated system was used by individuals who were involved in
issuing third party drafts for both accounts (1227 and 1224) . This
automated system will not allow draft agents to issue drafts out of
sequence without an accounting.     It provides for easy review of
canceled, voided, uncashed, or cashed drafts by the Third Party
Draft Administrator.     The system provides both oversight and
adequate internal control within an automated system.

Record copies of all the drafts are at the official record site
which is AOD.

Blanket Purchase Agreements
At the beginning of the fiscal year previous blanket purchase
agreements were reviewed and new ones established for the fiscal
year to cover the projected requirements.    Although some did not
have a great deal of activity due to the use of other payment
processes which increased during the fiscal year (e.g., government
purchase cards), we felt it was best to leave them in place through
the rest of the fiscal year.

The use of blanket purchase agreements does not delay payment to
vendors since they are paid in accordance with the Prompt Payment
Act as with other payments.  As mentioned earlier, we are in the
process of implementing the purchase card program which will pay
the vendor immediately rather than in accordance with the Prompt
Payment Act.    Even once the purchase card program is fully
implemented there will be a continuing need for blanket purchase

          4



                                 14
                                                                  APPENDIX 2
                                                                  Page 5 of 6


agreements.

The DI-1 system was designed as an internal tracking system to
ensure requirements were processed in a timely manner and to
provide feedback to customers. This program has no effect on the
payment process which is controlled at AOD.

Problems continue with the receiving process since vendors bypass
the receiving officer at times. We will again advise employees to
inform the       receiving   officer    of   the   requirements     regarding
receipts.

There is a    file of open purchase orders, some dating back to 1990.
These are     open purchase orders in which we are still awaiting
receipt of    the goods or services; having such open files for such
lengths is    not abnormal.

PERSONAL   PROPERTY    ACCOUNTABILITY

A physical inventory of the Denver Service Center personal property
is being conducted for fiscal year 1995.

There is one official personal property accountability system for
the National Park Service, located on the mainframe computer of the
U s . Forest Service’s National Finance Center in New Orleans,
Louisiana.   This is the only system used when doing official
inventories of accountable personal property. Individual offices
may maintain individual data bases for whatever reasons they
choose, but those are unofficial and not mart of the official
property inventory system.

This system does provide for the specific location                   of each
individual item of accountable property.      Accountable            personal
property is identified and tagged upon receipt by the                building
receiving officer.   Property technicians enter each item            into the
personal property inventory system via an on-line computer           program.

Personal property is not to be purchased via the purchase card
program by anyone other than purchasing agents. These individuals
have been instructed to complete receiving reports for the
identification and tagging of this property. When the audit was
conducted few purchases had been made via the purchase card
program.

Concerning the cited recommendations:

1.   A S stated in the foregoing, we believe              compliance      with
administrative requirements is being met.

2.   There is a continuing effort made to expand this program:

             5



                                        15
                                                       APPENDIX 2
                                                       Page 6 of 6


individuals are encouraged to use the purchase card when it is the
most effective and efficient tool available.

3.   The DI-1 system is an internal tracking system (to track
purchase requirements) within this office and was not intended to
be a finance tool in support of payment tracking. Payment tracking
is a function of AOD.   This agency’s finance system does not tie
into our DI-1 system in any way.

4.  The official property management system is used to officially
account for personal property.     For internal control purposes
access to the official records should be limited to property
technicians with responsibility and accountability for maintaining
the official system, and should not be delegated to all offices.
We have established     procedures for offices to notify the
responsible individuals to update and/or edit the data base.

Thank you again for the opportunity to respond.     If you have
additional questions please contact Sue Hawkins (303 969-2026 or
Dick Curtis (303 969-2773).




Alex Young




             6



                                16
                                                                  APPENDIX 3



       STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference            Status                  Action Required

   1, 2, and 4           Implemented.       No further action is required.

        3                Unresolved.        Reconsider the recommendation,
                                            and provide an action plan,
                                            including target dates and titles of
                                            officials responsible for
                                            implementation.




                                       17
                  SHOULD BE REPORTED TO
            THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                        Calling:


                  Within the Continental United States

U.S. Department of the Interior                Our 24-hour
Office of Inspector General                    Telephone HOTLINE
1550 Wilson Boulevard                          1-800-424-5081 or
Suite 402                                      (703) 235-9399
Arlington, Virginia 22210

                                                TDD for hearing impaired
                                                (703) 235-9403 or
                                                1-800-354-0996


                  Outside the Continental United States




                                               (703) 235-9221




U.S. Department of the Interior                (700) 550-7279 or
Office of Inspector General                    COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
